No. 19-1058
IN THE

Supreme Court of the United States
_________
HOSPIRA, INC.,
Petitioner,
v.
ELI LILLY AND COMPANY,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Federal Circuit
________
REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
________
YUSUF ESAT
JENNER & BLOCK LLP
353 N. Clark Ave
Chicago, IL 60654

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................... ii
ARGUMENT ....................................................................... 2
I. The
Federal
Circuit’s
Decision
Is
Inconsistent With Festo. .............................................. 2
II. This Court Should Grant Certiorari. .......................... 7
A. The
Federal
Circuit’s
decision
undermines the public notice function of
patents and prosecution records. .......................... 7
B. The Federal Circuit’s inconsistent
outcomes have resulted in mass confusion. ....... 11
CONCLUSION ................................................................. 13

ii
TABLE OF AUTHORITIES
CASES
Caraco Pharmaceutical Laboratories, Ltd. v.
Novo Nordisk A/S, 566 U.S. 399 (2012) .................... 10
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., Ltd., 535 U.S. 722 (2002) ............ 1, 3, 4
Norian v. Stryker Corp., 432 F.3d 1356 (Fed.
Cir. 2005) ....................................................................... 11
PLIVA, Inc. v. Mensing, 564 U.S. 604 (2011) ................ 10

1
In Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., Ltd., 535 U.S. 722 (2002), this Court
held that when a patentee narrows a claim during
prosecution to overcome a patentability rejection, a
“court should presume that the patentee surrendered
all subject matter between the broader and the
narrower language” for purposes of the doctrine of
equivalents. Id. at 740. It further held, however, that
the patentee can overcome that presumption when “the
rationale underlying the amendment … bear[s] no more
than a tangential relation to the equivalent in
question.” Id.
That statement in Festo has spawned an unending
stream of litigation over whether the relationship
between an amendment and an equivalent is
“tangential,” leading to widespread confusion.
Eighteen years after Festo, it is now clear that the
Federal Circuit cannot sort out the scope of the
“tangential relation” exception on its own. This Court’s
guidance is sorely needed to clarify the “tangential
relation” exception and ensure it does not swallow the
presumption of prosecution history estoppel.
This case is the ideal vehicle to consider that issue.
The facts are undisputed and stark. Lilly could easily
have narrowed its claim to pemetrexed and its salts.
Instead, it chose to narrow its claim to one particular
pemetrexed salt: pemetrexed disodium. Now, it seeks
to avoid the consequence of that choice by expanding
its claim via the doctrine of equivalents to cover
competing products that are not pemetrexed disodium.
The doctrine of prosecution history estoppel is designed
for exactly this type of buyer’s remorse argument. The

2
Federal Circuit’s willingness to apply the “tangential
relation” exception is irreconcilable with Festo’s
reasoning and expands the “tangential relation”
doctrine beyond what the Festo Court could have
contemplated. And the Federal Circuit’s decision will
open the door to widespread manipulation of the patent
prosecution process, as patentees narrow their claims
to avoid patentability rejections and then expand them
during patent litigation under the doctrine of
equivalents.
Lilly offers no sound reason for denying review. It
does not dispute the outsized importance of prosecution
history estoppel in modern-day patent litigation. Nor
does it identify any factual disputes or any other
vehicle problem. Lilly characterizes the decision below
as a factbound application of Festo, but ignores large
swaths of Festo’s reasoning that are irreconcilable with
the Federal Circuit’s decision.
Lilly also claims that Hospira’s arguments conflict
with the arguments in the separate petition filed by Dr.
Reddy’s Laboratories, Ltd. (“DRL”). That is not so—
Hospira’s arguments are entirely consistent with
DRL’s arguments. The Court should grant certiorari in
both cases and consolidate them for oral argument.
ARGUMENT

I. The Federal Circuit’s Decision Is Inconsistent
With Festo.
Under Festo, this case should have been easy. To
rebut the presumption of prosecution history estoppel,
“[t]he patentee must show that at the time of the
amendment one skilled in the art could not reasonably

3
be expected to have drafted a claim that would have
literally encompassed the alleged equivalent.” 535 U.S.
at 741. It is plain that Lilly could reasonably have
drafted a claim that would have literally encompassed
the alleged equivalent. It could have simply said
“pemetrexed salts.”
Because Lilly rejected this
obvious option and instead chose to narrow its claim to
one
particular
pemetrexed
salt—pemetrexed
disodium—it should be estopped from rewriting its
claim to encompass all pemetrexed salts via the
doctrine of equivalents.
The Federal Circuit reached a contrary conclusion
based on its view that there was a “tangential relation”
between the amendment and the equivalent. But Festo
framed the “tangential relation” exception as an
example of a case where “one skilled in the art could
not reasonably be expected to have drafted a claim that
would have literally encompassed the alleged
equivalent”—not a freestanding exception that applies
even when the patentee can reasonably draft a claim
that would have encompassed the claimed equivalent.
535 U.S. at 741; see Pet. 16-17.
Festo’s explanation of the purpose of prosecution
history estoppel proves the point. Festo explained:
Prosecution history estoppel ensures that the
doctrine of equivalents remains tied to its
underlying purpose. Where the original
application once embraced the purported
equivalent but the patentee narrowed his claims
to obtain the patent or to protect its validity, the
patentee cannot assert that he lacked the words
to describe the subject matter in question. The

4
doctrine of equivalents is premised on language’s
inability to capture the essence of innovation,
but a prior application describing the precise
element at issue undercuts that premise. In that
instance the prosecution history has established
that the inventor turned his attention to the
subject matter in question, knew the words for
both the broader and narrower claim, and
affirmatively chose the latter.
535 U.S. at 734-35. Thus, Festo holds that an exception
to prosecution history estoppel is warranted in cases
involving “language’s inability to capture the essence of
innovation.” Id. This is plainly not such a case. Here,
the Federal Circuit concluded that what Lilly “actually
invented” was “an improved method of administering
pemetrexed.” Pet. App. 21a. If that is what Lilly
“actually invented,” it could have written the claim to
encompass all pemetrexed salts. Indeed, as the petition
pointed out, Lilly’s own prior patent defined
“pemetrexed” as “the stable salts, acids and free base
forms thereof.” Pet. 15 (quotation marks omitted).
Lilly’s decision to narrow the claim to pemetrexed
disodium in the patent at issue here reflected its own
strategic decision—not any imperfection in language
that warrants relaxing prosecution history estoppel.
Lilly has precious little to say in response. Lilly
entirely ignores the portion of Festo regarding
“language’s inability to capture the essence of
innovation.”
Pet. 21 (quotation marks omitted).
Instead, Lilly offers the conclusory assertion that when
the patentee is “focused on distinguishing prior art
unrelated to the equivalent in question,” that

5
necessarily means the patentee “could not reasonably
be expected” to have drafted a claim encompassing the
equivalent—even if the equivalent was foreseeable.
BIO 17-18. That cannot be right. If Lilly wanted its
claim to encompass all pemetrexed salts, it reasonably
could, and should, have narrowed its claim to the class
of pemetrexed salts, rather than gratuitously limiting
its claim to one specific pemetrexed salt.
Hospira’s petition offered an illustrative example.
A claim in a patent application recited “fruit,” and then,
in response to a rejection, the claim was amended to
“Red Delicious apples.” Anyone would infer that the
amendment excludes other types of apples. Otherwise,
the patentee would have just said “apples.” Yet, under
the Federal Circuit’s decision, a patentee could accuse
Honeycrisp apples of infringement, on the theory that
the patentee could have narrowed its claim to “apples”
to overcome the rejection—a seemingly absurd result,
given the patentee’s specific decision to narrow its
claim to “Red Delicious apples.” Pet. 18.
Rather than distinguishing this case from that
hypothetical, Lilly embraces the hypothetical—it
contends that the patentee could, indeed, assert that all
types of apples infringe, so long as the prior art did not
relate to other types of apples. BIO 18-19. If the Court
is troubled by the prospect that the doctrine of
equivalents would apply in that scenario, it should
grant certiorari and reverse.
Hospira’s petition also gave a second reason that
the Federal Circuit’s decision conflicts with Festo.
Hospira explained that the Federal Circuit’s legal
standard wrongly focuses on the reason for amending

6
the claim at all, rather than the reason for the
particular amendment that the patentee made—which
should have been the inquiry dictated by Festo. Pet.
19-20. Thus, the Federal Circuit should have asked:
why did Lilly use the words “pemetrexed disodium” in
its amendment?
Id.
Lilly’s explanation for its
amendment did not answer that question, because Lilly
did not explain why it added the word “disodium.” Pet.
20. And if the Federal Circuit had posed the right
question, it would have reached the right answer:
prosecution history estoppel applies. Id.
Tellingly, Lilly’s response brief completely ignores
this argument. Hospira will reiterate: there is no
justification for the Federal Circuit’s willingness to
apply the “tangential relation” exception absent any
explanation in the prosecution history record for the
particular words Lilly used.
Rather than address Hospira’s arguments on their
merits, Lilly contends that Hospira’s arguments
conflict with DRL’s arguments in DRL’s separate
petition in No. 10-1061. BIO 19. There is no conflict.
DRL argues that the “tangential relation” exception
applies “‘when an amendment adds multiple limitations
to a claim at the same time, and not all relate to an
examiner’s rejection.’” Id. (quoting DRL Pet. 18).
Nothing in Hospira’s petition is inconsistent with that
position—Hospira has not argued that the “tangential
relation” exception should never apply to foreseeable
equivalents, as Lilly claims. BIO 17.
Hospira’s argument simply addresses when the
“tangential relation” exception should not apply. It
should not apply where, as here, the patentee could

7
reasonably have narrowed its claim to what it now
claims it meant to patent. And it should not apply
where, as here, the patentee cannot give an explanation
for the actual language of its amendment. Lilly is
unable to provide any coherent response, grounded in
Festo, to these arguments. 1
II. This Court Should Grant Certiorari.
This case warrants Supreme Court review in view
of the practical importance of the “tangential relation”
exception to prosecution history estoppel, and in view
of the Federal Circuit’s confusion over the scope of that
exception.
A. The Federal Circuit’s decision undermines
the public notice function of patents and
prosecution records.
As the petition catalogued, the “tangential relation”
exception to prosecution history estoppel is a constant
source of litigation. Pet. 22-23. This litigation is so
common for an unfortunate reason: it is a common
tactic for patentees to artificially narrow a patent claim
in order to induce the Patent Office into allowing the

1 There is also no inconsistency between Hospira’s argument and
the argument in the petition in CJ CheilJedang Corp. v. ITC, No.
19-1062. That petition argues that if the prosecution history
record does not contain an “explicit and contemporaneous
explanation[]” (BIO 20), the presumption of prosecution history
estoppel cannot be rebutted. Here, likewise, as Hospira’s petition
explained, the absence of a contemporaneous explanation for the
phrase “pemetrexed disodium” should be fatal to Lilly’s argument.

8
claim, and then re-expand the claim after the fact via
the doctrine of equivalents.
The Federal Circuit’s decision will make this
gamesmanship worse. The Federal Circuit permitted
patentees to avoid prosecution history estoppel under
the “tangential relation” exception even when it is
absolutely clear that the patentee could have narrowed
its claim so as to encompass the claimed equivalent, and
even without an explanation in the prosecution history
for the particular language of the amendment. As a
result, if the Federal Circuit’s decision stands, avoiding
prosecution history estoppel will be trivially easy. The
patent applicant need only write carefully-worded, selfserving statements regarding the reasons for its
amendments so it may argue after the fact that those
reasons are “tangential” to an equivalent. Pet. 25. The
Court should not countenance such bait-and-switch
tactics.
The Federal Circuit’s decision profoundly
undermines the public notice function of patents and
prosecution history records. In a properly functioning
patent system, the Patent Office, and members of the
public, should be able to infer that when a claim is
rejected in view of prior art, and the patentee
addresses that rejection by narrowing a claim from a
class of compounds to a single salt compound, it follows
that the claim does not, in fact, stretch beyond that salt
compound. But under the Federal Circuit’s decision,
they cannot. Instead, to assess the claim scope that
may be regained through future litigation, they must
start with the actual claim language, and then deduce
all of the myriad broader claims that the patentee could

9
have asserted based on the patentee’s arguments made
to the Patent Office. For instance, here, Hospira was
apparently required to start with the claim language—
“pemetrexed disodium”—and then deduce that Lilly
could have prosecuted a broader claim covering other
pemetrexed salts without risking a patentability
rejection.
That holding will increase uncertainty
regarding the scope of patent claims and hamper
competitors’ ability to design around patents.
In response to these public notice concerns, Lilly
claims that Hospira seeks to overrule Festo, or perhaps
even the doctrine of equivalents as a whole. BIO 25-27.
Not so. Hospira merely asks that the Court follow
Festo’s own reasoning, which is irreconcilable with the
Federal Circuit’s expansion of the “tangential relation”
exception.
Lilly also claims that Hospira’s position would
undermine the public notice function of the prosecution
record by requiring courts to “consider hypothetical
alternative amendments,” that can be “conjure[d] up,”
as opposed to the “objective record.” BIO 27. That is
also incorrect. As Festo explained, prosecution history
estoppel should apply when a patentee could
reasonably have been expected to draft claim language
encompassing the claimed equivalent—not merely
when such language can be “conjure[d] up.” Id. At a
minimum, prosecution history estoppel should apply
where the “objective record” contains no explanation
for the particular words the patentee used. Here, the
“objective record” does not explain why Lilly added the
word “disodium”—and as such, Lilly has not met its

10
burden of rebutting the presumption of prosecution
history estoppel.
Finally, Lilly argues that the Hatch-Waxman
context of this case undermines Hospira’s concern
about public notice. BIO 28. This is a red herring.
First, the doctrine of prosecution history estoppel
applies across patent law; it is not specific to HatchWaxman cases. And the Federal Circuit’s application
of the “tangential” exception in this case did not turn on
Hatch-Waxman.
Second, to the extent Hatch-Waxman is relevant,
the public notice concerns raised by Hospira are
especially salient in the Hatch-Waxman context. The
Hatch-Waxman Amendments are intended to
encourage generic drug competition. Under HatchWaxman, generic drugs can gain FDA approval if they
are bioequivalent to a reference drug that has already
been approved by the FDA. See PLIVA, Inc. v.
Mensing, 564 U.S. 604, 612 (2011). This scheme
promotes the inexpensive manufacturing of generic
drugs. See id. at 612-13. But “[b]ecause the FDA
cannot authorize a generic drug that would infringe a
patent,” “a company filing an [Abbreviated New Drug
Application] must assure the FDA that its proposed
generic drug will not infringe the brand’s patents.”
Caraco Pharm. Labs., Ltd. v. Novo Nordisk A/S, 566
U.S. 399, 405-06 (2012). Resultant patent litigation can
grind the approval process to a halt. See id. at 408-09.
It is precisely in that context in which clarity in the
meaning of patent claims is most needed—and in which
the Federal Circuit’s expansion of the “tangential
relation” exception is most harmful.

11
Moreover, Lilly’s position implies that any drug that
is bioequivalent to a reference drug for Hatch-Waxman
purposes infringes a patent on that drug under the
doctrine of equivalents. That position would render
Hatch-Waxman ineffective in facilitating approval of
generic drugs—because the mere filing of an
application asserting bioequivalence to a reference
drug would be a confession of infringement of a patent
on the reference drug. It is no surprise that no court
has ever adopted this position.
B. The
Federal
Circuit’s
inconsistent
outcomes have resulted in mass confusion.
This Court’s intervention is necessary because the
Federal Circuit has shown that it will not clarify the
scope of the “tangential relation” exception on its own.
The Federal Circuit concluded that prosecution
history estoppel did not apply because the purpose of
Lilly’s amendment was to distinguish pemetrexed salts
from other antifolates. Thus, because Lilly could have
overcome the prior art by narrowing its claim to
“pemetrexed salts,” Lilly would not be estopped from
expanding its claim to other pemetrexed salts via the
doctrine of equivalents. Yet, as the petition explained,
the Federal Circuit has repeatedly rejected that exact
argument. In other cases, the court has “held the
patentees to the scope of what they ultimately claim,
and we have not allowed them to assert that claims
should be interpreted as if they had surrendered only
what they had to.” Pet. 28-29 (quoting Norian v.
Stryker Corp., 432 F.3d 1356 (Fed. Cir. 2005)).

12
Lilly asserts that in “all cases,” the Federal Circuit
looks to the “reason for the amendment,” with different
factual records yielding different outcomes. BIO 24.
But in every case in this line, the ultimate legal
question was the same. In every case, the court’s
analysis of the “reason for the amendment” established
that the patentee did not need to surrender the
equivalent in question to overcome the prior art. In
this case, for example, the Federal Circuit’s analysis
established that Lilly did not need to surrender
pemetrexed ditromethamine to overcome Arsenyan. In
every case, the Federal Circuit was faced with the
same question: if the “reason for the amendment”
establishes that the patentee did not need to surrender
the equivalent to overcome the prior art, is that enough
to defeat the presumption of prosecution history
estoppel? In some decisions, including the decision
below, the Federal Circuit answered “yes”; in others,
the Federal Circuit answered “no.” The Federal
Circuit’s inability to provide a consistent answer to this
important question of patent law is further grounds for
granting review. Pet. 29-30.2
*

*

*

2 Lilly claims that Hospira’s petition is inconsistent with DRL’s
petition because Hospira’s petition focused on prior inconsistent
cases, while DRL’s petition cited both prior consistent and prior
inconsistent cases. BIO 21. Lest there was any confusion, Hospira
agrees with DRL that the Federal Circuit has made the same
mistake in several cases, not just this one. See Pet. 30 (noting that
decisions on the “tangential relation” exception “turn on the
random draw of Federal Circuit panel”).

13
The Federal Circuit’s decision is wrong, has
negative practical consequences, and deepens confusion
over the scope of the “tangential relation” exception.
The Court should grant certiorari to restore order in
this important area of patent law.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
YUSUF ESAT
JENNER & BLOCK LLP
353 N. Clark Ave
Chicago, IL 60654

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

